<html>
<title> - VOTING RIGHTS AND ELECTION ADMINISTRATION IN THE DAKOTAS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


   FIELD HEARING ON VOTING RIGHTS AND ELECTION ADMINISTRATION IN THE 
                                DAKOTAS

=======================================================================

                                HEARING

                               BEFORE THE

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 16, 2019

                               __________


      Printed for the use of the Committee on House Administration

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                       Available on the Internet:
           https://govinfo.gov/committee/house-administration       
                            
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-645                      WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------           
           
           
                             C O N T E NT S

                              ----------                              

                             APRIL 16, 2019

                                                                   Page
Voting Rights and Election Administration in the Dakotas.........     1

                           OPENING STATEMENTS

Chairwoman Marcia L. Fudge.......................................     1
    Prepared statement of Chairwoman Fudge.......................     3
Hon. Rodney Davis, Ranking Member................................     5
    Prepared statement of Ranking Member Davis...................     7

                               WITNESSES

Mr. Charles Walker, Councilman at Large, Standing Rock Sioux 
  Tribe..........................................................     9
    Prepared statement by Mr. Walker.............................    12
Mr. Roger White Owl, CEO, Mandan, Hidatsa, & Arikara Nation......    30
    Prepared statement of Mr. White Owl..........................    32
Ms. Alysia LaCounte, General Counsel, Turtle Mountain Band of 
  Chippewa Indians...............................................    24
    Prepared statement of Ms. LaCounte...........................    26
Ms. Myra Pearson, Chairwoman, Spirit Lake Nation.................    18
    Prepared statement of Ms. Pearson............................    20

                       SUBMISSIONS FOR THE RECORD

Hon. Alvin A. Jaeger, Secretary of State, State of North Dakota, 
  statement......................................................    89
Ms. Nicole Donaghy, Field Director, North Dakota Native Vote, 
  statement......................................................   100
Sioux Nation of Indians, Dahcotah-Nakota-Lakota, statement.......   104
Ms. Karen K. Ehrens, Bismarck-Mandan (North Dakota) League of 
  Women Voters, statement........................................   109
Mr. Terrence Yellow Fat, Standing Rock Sioux Tribe, statement....   112
Ms. Phyllis Young, Elder, Standing Rock Sioux Tribe, statement...   127

 
        VOTING RIGHTS AND ELECTION ADMINISTRATION IN THE DAKOTAS

                              ----------                              


                        TUESDAY, APRIL 16, 2019

                  House of Representatives,
                     the Subcommittee on Elections,
                         Committee on House Administration,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:10 a.m., at 
Standing Rock Sioux Tribal Council, Building #1, North Standing 
Rock Avenue, Fort Yates, North Dakota, 58538, Hon. Marcia L. 
Fudge [Chair of the Subcommittee] presiding.
    Present: Representatives Fudge, Butterfield, and Rodney 
Davis.
    Also Present: Representative Thompson.
    Staff Present: Jamie Fleet, Staff Director; Sean Jones, 
Legislative Clerk; David Tucker, Senior Counsel and 
Parliamentarian; Elizabeth Hira, Elections Counsel; Sarah 
Nasta, Elections Counsel; Peter Whippy, Communications 
Director; Courtney Parella, Minority Communications Director; 
Cole Felder, Minority General Counsel; Joy Yunji-Lee, Minority 
Counsel; and Jesse Roberts, Minority Counsel.
    Chairwoman Fudge. Good morning. The Committee on the 
Elections of--the Subcommittee on Elections of the Committee on 
House Administration will come to order.
    I would like to thank the Members of the Subcommittee and 
my colleagues from the House who are here with us today, as 
well as our witnesses and all those in attendance for being 
here today. I ask unanimous consent that all Members have 5 
legislative days to revise and extend their remarks and that 
written statements be made part of the record. Hearing no 
objection, so ordered.
    I ask unanimous consent that Chairman Thompson be invited 
to sit on the dais for the Subcommittee hearing today. Hearing 
no objection, so ordered.
    My name is Marcia Fudge, and I am the Subcommittee Chair. I 
want to thank my colleagues, our witnesses, and the people of 
North and South Dakota and the Tribal leaders of several 
communities for joining us here today.
    We have had the responsibility and the honor of traveling 
this Nation in the past few months, hearing from those on the 
ground about the reality of how elections are run and gathering 
accounts of those who have experienced challenges and outright 
discrimination as they seek to exercise their Constitutional 
right to vote.
    The Voting Rights Act was necessary because of this 
country's long and painful history of not extending the right 
to vote to all of ``We the People''. The Native American 
community has suffered alongside other minority groups in this 
denial of the franchise.
    When the 14th Amendment granted citizenship rights to Black 
Americans in 1868, the government specifically interpreted the 
amendment to exclude Native Americans on reservations. It 
wasn't until 1924 that Native Americans were in full 
citizenship under the Indian Citizenship Act. Native American 
advocates fought State by State to ensure their right to vote. 
Only in 1962 did Native Americans become enfranchised in every 
State. Thus, current efforts at voter suppression and 
disenfranchisement of Native American communities fall within a 
continuum of extreme marginalization of this particular 
population.
    For that reason, there is no better place to hear the story 
of Native American voting access than here at Standing Rock, 
where plain efforts are as suppressing the Native American vote 
persist in law to this day.
    North Dakota adopted a voter ID law even after the deputy 
Secretary of State warned it would disproportionately burden 
the Native American community. South Dakota had more litigation 
over voting rights violations than any other State in Indian 
country. We have heard stories of voters being forced to vote 
in a chicken coop. That is not what the Voting Rights Act 
envisioned and it simply has no place in our democracy. We are 
here to listen, and to do something about what we hear.
    With that in mind, we are pleased to have with us today the 
very people who can tell this story firsthand, Native American 
advocates and litigators, Tribal leaders, and legislators who 
are right in the middle of the fight for justice, and who are 
willing to honor us with their presence and stories today.
    I thank you for your tireless efforts on behalf of every 
voter in the Native American community, and toward a robust 
democracy for all. I look forward to your testimony.
    I would now yield for an opening statement to my colleague 
and friend, the Ranking Member, Mr. Davis.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Davis. Thank you, Madam Chairwoman. It is great to be 
here. My first time. As many of us who are coming from outside 
of North Dakota and South Dakota, our first time to the 
Dakotas.
    It is an honor for me to be here at Standing Rock. As 
somebody who had the honor of recognizing the first ever Native 
American woman, our colleague, Deb Haaland, when she chaired 
House Proceedings just a few months ago, this is really, truly 
an honor for me to be able to be surrounded by such history. As 
a Member of the House Administration Committee, this is a great 
opportunity to be here, to bring Washington to you, rather than 
expecting everybody else to go to Washington.
    Since the creation of the Committee on House 
Administration, oversight of Federal elections quickly became 
one of our chief tasks. Throughout CHA's existence, the 
Committee has worked across the aisle to create significant and 
necessary election policy that has widely impacted this Nation, 
including legislation to eliminate the poll tax, legislation to 
create easier access to members of the military and their 
families when they are voting overseas, and also the Help 
America Vote Act of 2002, a landmark piece of legislation that 
took significant steps to remedy the problems seen in the 2000 
Presidential election.
    The Subcommittee on Elections is designed to serve as an 
extension of the CHA to enhance oversight capabilities of 
Federal elections. While the Subcommittee has not always been a 
formal part of the Committee on House Administration, the work 
on election administration has always remained a top priority. 
Since the Subcommittee's recent reinstatement, I have been told 
by my good friend, Chairwoman Fudge, that the current intention 
of the Subcommittee is to investigate voting rights issues. The 
Voting Rights Act was enacted in 1965 for the purpose of 
removing racial-based restrictions on voting. The VRA 
historically has been a bipartisan effort, most recently 
reauthorized under a Republican President and a Republican 
Congress. This legislation has primarily remained under the 
jurisdiction of the House Judiciary Committee. Our Committee, 
however, has an obligation to review how elections are 
administered and recognize problems Congress can solve, which I 
hope we are able to learn more about here today.
    One of the reasons we are here today was the Supreme 
Court's 2013 decision in Shelby County v. Holder, which 
revolves around Section 4 and Section 5 of the Voting Rights 
Act. In that opinion, Chief Justice Roberts opens his majority 
opinion by stating that the Voting Rights Act of 1965 employed 
extraordinary measures to address extraordinary problems.
    Ultimately, the Court did not weigh in on whether there 
remains an extraordinary problem. The Court did, however, hold 
that what at one time made sense has lost its relevance, and 
noted that nearly 50 years later, things have changed 
dramatically. If there is evidence of intentional widespread 
voter discrimination, we should take steps to remedy that in a 
bipartisan manner. Additionally, we should do our due diligence 
to review the facts, and the numbers carefully, and hear from 
all stakeholders. What are the voter registration trends? What 
are the turnout trends? It is essential that Congress make it 
the most well-informed decision as possible. Voting is a 
fundamental right of American citizens, and protecting that 
right is a responsibility I take very seriously as the Ranking 
Member of this Committee.
    Today I am here, along with my colleagues and friends, to 
listen to all the witnesses who have graciously agreed to 
participate in this field hearing. I look forward to hearing 
what you have to share with the Subcommittee.
    And with that, Madam Chairwoman, I yield back.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you, Mr. Davis.
    I would also like to recognize the other two Members of the 
Congress who are sitting here with us on the panel. First here 
is Mr. G.K. Butterfield of North Carolina, who is a member of 
the House Administration Committee, and the Energy and Commerce 
Committee. Lastly, Chairman Bennie Thompson, who is the 
Chairman of the Homeland Security Committee for the U.S. 
Congress.
    We will now introduce our panelist. Again, each of you will 
have 5 minutes. When you begin, you will see the lights come 
on. Green light means start. Yellow light means you have one 
minute left. Red light means please try to wrap up.
    First, we are pleased to recognize Charles Walker, Judicial 
Committee Chairman, Standing Rock Sioux Tribe; Myra Pearson, 
Chairwoman, Spirit Lake Nation; Alysia LaCounte--did I say it 
right? Okay--General Counsel, Turtle Mountain Band of Chippewa 
Indians; and Mr. Roger White Owl, CEO, Mandan Hidatsa and tell 
me--Arikara Nation. Thank you so much.
    We will begin with you, Mr. Walker. You have 5 minutes.

  STATEMENTS OF CHARLES WALKER, COUNCILMAN AT LARGE, STANDING 
  ROCK SIOUX TRIBE; RODGER WHITE OWL, CEO, MANDAN, HIDATSA, & 
   ARIKARA NATION, ALYSIA LACOUNTE, GENERAL COUNSEL, TURTLE 
 MOUNTAIN BAND OF CHIPPEWA INDIANS; MYRA PEARSON, CHAIRWOMAN, 
                       SPIRIT LAKE NATION

                  STATEMENT OF CHARLES WALKER

    Mr. Walker. Good morning, Madam Chairwoman and Committee 
Members. My name is Charles Walker, and I serve as Chairman of 
the Judicial Committee of the Standing Rock Sioux Tribe. It is 
our pleasure to host you for this field hearing. Thank you for 
being here.
    The Standing Rock Sioux Tribe is a Federally recognized 
Tribe located in both North and South Dakota. We have 
approximately 15,975 members, 8,637 of whom live on a 
reservation. And of those living on the reservation, roughly 
5,868 are 18 years or older. The Standing Rock Sioux Tribe has 
strived for respectful relations with the State Governments of 
North and South Dakota. However, tensions have been pretty 
high, especially in recent history.
    For example, North Dakota prosecuted hundreds of Dakota 
Access Pipeline protesters. The last trial didn't finish until 
this February. The North Dakota Governor signed a bill on April 
9 that will make it harder to obtain public records regarding 
critical infrastructure projects, which presumably is targeted 
at further protecting pipeline construction projects.
    South Dakota's legislature also just passed a bill that 
could hold pipeline protesters liable for three times the cost 
of extraordinary law enforcement costs. Presumably, once again, 
in preparation of protests over the pending Keystone XL 
Pipeline. The Governor was the one who introduced the 
legislation, and it took only 3 days--it took only 3 days for 
both chambers of the State legislature to pass it. Even if the 
States claim that these laws were passed with a neutral lens, 
they suggest heavy anti-Indian sentiment, especially regarding 
protests or other forms of political participation.
    The State's recent voter ID laws carry a similar anti-
Indian undertone. North Dakota has had voter ID laws in place 
since 2004. But for years, the law still permitted individuals 
to vote if the poll worker could vouch for the identity of a 
qualified voter or the voter signed an affidavit, swearing, 
under penalty of perjury, that he or she was qualified to vote. 
These exceptions were especially useful on the Standing Rock 
Reservation, where Tribal members serve as poll workers and can 
vouch for almost every person within the community.
    This all changed in 2013. Democrat Heidi Heitkamp won the 
Senate seat in 2012 by less than 3,000 votes, or roughly 1 
percent of the State population. We believe Standing Rock votes 
had a large impact on that election with Native American votes 
putting her over the top.
    In response, in 2013, the State legislature immediately 
imposed an ID requirement that required a residential address. 
Unfortunately, these ID and residential address requirements 
severely impacted voters on Standing Rock reservation. Many 
people on Standing Rock do not have an ID which is simply not 
necessary for everyday life. Most people know each other, and 
many people did not have a vehicle. Truth is, an ID costs money 
that people simply do not have. The family poverty rate in 
Sioux County, North Dakota alone is 35.9 percent. The nearest 
driver's license site is about 40 miles away. The average 
person is not going to travel that distance just to get an ID 
they do not need. And the Tribal ID is still going to cost 
money.
    Typically, unless you are elderly, we charge for the ID 
since we need funding to cover the cost of staff time and 
printing the ID. Additionally, the U.S. Postal Service does not 
always operate in the rural areas of the reservation. Many 
members use and share Post Office boxes instead of having 
mailed delivered straight to their homes. And even if the USPS 
did operate within a reservation, many of the homes are not 
marked with house numbers. Many streets lack signage And even 
if the State government has an address listed for a particular 
residence that might not have ever been ever communicated to 
the homeowners. And to make matters worse, the State uses 
multiple addressing systems. So some government officials might 
have one address listed, while another having a different 
address--while another has a different address.
    Simply put, it is a massive hurdle for many on the Standing 
Rock Reservation to figure out their actual residential 
address. We also have a significant portion of the population 
that is moving from home to home, because they do not have 
housing of their own, which means that even though they remain 
within the reservation, they do not have a consistent address. 
This makes the residential address requirement especially 
burdensome.
    The North Dakota legislature has said that these voter IDs 
are necessary to prevent voter fraud, but this is simply not a 
problem on Standing Rock Reservation. Tribal members serve as 
poll workers, so they recognize just about all the members in 
the community. Further, the failsafe mechanisms in the latest 
iteration of the voter ID law did not actually address the 
problems that Indian voters face. If the problem is simply a 
lack of a legitimate residential address then they likely do 
have a utility bill or some other document addressed to that 
address.
    Bottom line, members of Standing Rock Sioux Tribe feel that 
the North Dakota ID law was meant to target them and dissuade 
them from exercising their constitutional right to vote. It was 
hurtful to our members to be excluded this way, and our 
community remains outraged. This election cycle, the Tribe 
responded by expending valuable resources to try and make sure 
our members were not disenfranchised. We normally charge a $5 
fee to print new IDs for any Tribal member. Under the age of 
60, we waived this fee. Leading up to the election, we issued 
807 new Tribal IDs between October 15, 2018, and November 6, 
2018. We could have charged a fee to print 486 of these, which 
means we lost nearly $2,500 in income and spent almost 500 to 
print all these IDs. Previously, and by comparison, Tribal 
enrollment office averages only 47 IDs a month.
    We remain concerned with the State's voter ID law. We 
joined the Spirit Lake Tribe in their lawsuit against the 
State. And we will continue to fight against the repressive 
effects of the law.
    Once again, thank you for being here today and hearing our 
concerns. This concludes my comments.
    [The statement of Mr. Walker follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you very much, Mr. Walker.
    Ms. Pearson.

                   STATEMENT OF MYRA PEARSON

    Ms. Pearson. Good morning, Chairwoman Fudge and Ranking 
Member Davis. Thank you for having me here today. And I would 
also like to thank the Standing Rock Sioux Tribe for allowing 
me to come here and speak today.
    I am Myra Pearson. I am Chairwoman for the Spirit Lake 
Tribe. Spirit Lake is a federally recognized Tribe located in 
the center of North Dakota with an enrolled membership of 7,547 
members as of February 13, 2019. There are approximately 3,659 
members currently living on the reservation land situated 
within North Dakota, and about 108 members live within 20 miles 
of the reservation. Approximately 2,146 members of Spirit Lake 
living on the reservation are 18 years or older. Adjacent to 
the reservation are approximately 66 members who are 18 years 
of age or older.
    Many of our members struggle with housing instability, 
unemployment, and poverty. In 2015, a survey of 285 people 
living on the Spirit Lake reservation indicated that 38 percent 
of people have an individual income of under $5,000, and 73 
percent have an income of under $20,000 a year. 47.8 percent of 
the residents live below the poverty level as compared to the 
national average of 13.8 percent. Forty-one percent reported 
that they had been homeless at some point in their lives. The 
Cankdeska Cikana Community College here in North Dakota 
estimated in September, 2014 that there were around 300 
homeless people residing on or around the reservation, but also 
noted that this estimate might be conservative due to the many 
members not signing up for housing assistance.
    Given these realities and the fact that many parts of the 
reservation have not been thoroughly addressed, many members do 
not have an ID, since they do not need one to live their lives, 
and they cost money. If the members have IDs at all, they hold 
Tribal IDs that list their address as a P.O. box, if they have 
one. There are many streets on the reservation that are not 
labelled, and there are many houses which lack numbers. And 
even if the county 911 coordinator was assigned a residential 
address to someone's home, many are never notified of this 
address.
    Mail services do not extend to certain parts of the 
reservation. For example, in Fort Totten, all residents receive 
their mail through a P.O. box. There is no postal service 
delivery to residents in this area, so they must rely on a P.O. 
box to conduct their affairs. Spirit Lake became concerned that 
its members would not have IDs required to comply with the 
current voter ID law and decided to expand its resources to 
help its members obtain acceptable IDs.
    In the weeks leading up to November 2018 election, members 
and staff of Spirit Lake Tribal government spent several hours 
a day working to address these serious issues for its members. 
In order to ensure that its members had valid IDs, the Tribe 
chose to extend hours at the Tribal enrollment office. Between 
October 22 and November 8, 2018, the enrollment office was open 
from 8 a.m. until as late as 7:00 p.m., depending on need.
    Robin Smith, the Director for the enrollment department, 
had to work through her lunch break on a regular basis to 
ensure the needs were met. Ms. Smith worked a total of 21.25 
hours of overtime between this timeframe at a rate of $37.50 
per hour, which cost the Tribe an additional $796.88.
    During this timeframe, the Tribe also waived the cost of 
the Tribal IDs for many of the members, which ordinarily would 
cost $11. The ID fee would normally have gone toward covering 
the cost of issuing the ID, including supplies, equipment, ink, 
and paying the staff. In order to meet the needs of the members 
of--and the additional requests for IDs, the Tribe purchased a 
new printer, worth $2,655, and $1,105 worth of supplies, such 
as the ink and the cards themselves. The Tribe issued a total 
of 665 ID cards between October 22 and November 8. Normally, 
the Tribe issues 30 ID cards per month. Due to the fee waiver, 
the Tribe lost $7,315 in income during this time.
    I am going to share a personal story with you. My time is 
running out here. But I am--you know, my testimony pretty much 
echoes what Mr. Walker had just stated previously. But I did 
experience--you know, this past summer, I had gone to apply for 
some central air. And while I was filling my application the 
company that was going to finance my central air unit told me 
he couldn't do it. He said it is not because of your--you know, 
your credit rating or anything. It is because we can't locate 
you on the map. He said as far as I am concerned, you could 
live in Canada, he said, and not live where you say you are 
living.
    I gave him a physical address and everything, and he 
wouldn't accept it. I couldn't get my central air through his 
company. But at the same time, I also had a phone delivered to 
my home, and they couldn't find my address, but I was paying 
the bill. About 7 months later, I asked about the bill and why 
I was paying for something I didn't have. Well, they finally 
sent it, but it sat in the warehouse all that time at the FedEx 
office, because they didn't have a physical address on me.
    I have had that physical address and I have lived in that 
same location for the past 22 years. But I still do not exist 
as far as the GPS and everything that goes along with that.
    I hope today you can understand the difficulties that we 
have here, not only on our reservations, but as a Native 
American. We have many issues that we have to face and that we 
have to go up against.
    Again, I want to thank you for allowing me this extra time.
    [The statement of Ms. Pearson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you very much.
    Ms. LaCounte.

                  STATEMENT OF ALYSIA LACOUNTE

    Ms. LaCounte. Thank you, Chairwoman Marcia Fudge and 
Representatives for coming to North Dakota for this field 
hearing. I am Alysia LaCounte, the General Counsel to the 
Turtle Mountain Band of Chippewa Indians, and a Tribal member. 
I apologize on behalf of Chairman Jamie S. Azure. Presently, 
Chairman Azure is attending a government finance meeting on 
behalf of the Turtle Mountain Band of Chippewa Indians.
    The Turtle Mountain Band of Chippewa Indians reside in 
North Central North Dakota on a 6-by-12 mile reservation. We 
have upwards of 36,000 members, with 19,000 living on or near 
the reservation.
    Based upon the Bureau of Indian Affairs labor statistics, 
our present unemployment rate hovers at 69.75 percent. Of 
course, with high unemployment, poverty ensues. Great poverty 
and its reality escape many U.S. citizens' comprehension.
    Because of this high poverty rate, the community's access 
remains limited. Limited because of those living below poverty 
do not have vehicles, driver's license, or other means of 
public transportation to various government service providers. 
So the recent enactment of the North Dakota bills, which places 
requirements on the original citizens of this land, tend to 
diminish, discourage, and repress the Turtle Mountain Tribal 
citizens right to vote and access to polls. As you are all 
aware, the various States of the Union administer the Federal 
elections so in order to vote for the President or any other 
Federal delegations to U.S. Congress, my Tribal community must 
vote in a State election. This is not our preference.
    When the U.S. Supreme Court's decision issued in mid-
October upheld the law that required physical addresses, the 
youth demanded action. The youth came to the Tribe and asked, 
``What are you going to do to prevent disenfranchisement of our 
people?'' The Tribal government enacted a law to enable voters 
to receive free Tribal identification cards. Understand that 
the fee of $15 is not exorbitantly high, but $15 is milk and 
bread for a week for a poor family.
    And as many of the Congressional delegation may be aware we 
are not a wealthy Tribe. We have scraped and scraped and 
survived these past 200 years.
    Every time I come before one of these hearings, I start 
crying.
    With this understanding, the government waived fees for 
Tribal identifications to meet the requirements to allow our 
members to vote. Now our Tribal identifications meet the same 
standards as the State of North Dakota's, the same weight, 
dimensions, and appearance on 2400 new identification cards.
    Still, with this mandate for free identification cards, 
things were not easy. The Turtle Mountain Band of Chippewa 
Indian reservation's use of addresses and street names 
commenced recently. Uniform addresses and numbering of 
residences only occurred within the last 10 years. Still, we 
implemented that law with street naming and house numbering. 
Street signs do not exist. Most residences lack a house number.
    Myself, growing up in a small town rather than on a 
reservation proper, I placed my number on my residence when I 
moved to Belcourt. Now, most private residences still lack a 
house number or a fire number. Many of our public housing 
numbers have house numbers, but those house numbers all start 
with the same number, and separate unit number applies to every 
individual. Such a system confuses our first responders, 
because the 911 system fails to enumerate the unit numbers. 
Furthermore, to get the 2,400 IDs issued, we experienced 
numerous technical difficulties. The first day of free Tribal 
IDs, our ID machine melted down and the actual physical IDs, 
because it became too hot. As a result, we sought assistance 
through any means necessary. Social media, news outlets, 
moccasin telegraph. We received an outpouring of support and 
donation to further our cause.
    The Turtle Mountain Tribal College created a help line 
which the students volunteered manning. We purchased new 
machines to produce IDs and set them up on numerous locations 
throughout the community. Our dedicated motor vehicle 
department staff worked 14-hour days for the 2 weeks through 
the date of the election. We held get-out-the-vote rallies.
    While we do not comment upon the intent of the law, its 
practical implication acted to disenfranchise the people of the 
Turtle Mountain Band of Chippewa. We met the challenge and 
improved our voter turnout from the 2016 Presidential election 
by 42 percent but please understand this took a great amount of 
financial and time resources. The Tribes organized like never 
before. The Tribe's youth led the charge so much so that the 
students led a march from high school to the polls on Election 
Day in a snowstorm with wind chills. But luckily, most of that 
was downhill.
    The Subcommittee clearly sees tribes and Tribal members as 
vulnerable populations with limited resources, access to 
education, healthy food, and opportunity. So that we as a Tribe 
and as a people can vote, access to polls to include our few 
voices will forever be a priority for a Tribe. And we ask that 
the Subcommittee consider our population and its work.
    The 2018 Federal election is now part of our cultural 
history, and the youths' movement provided hope and expectation 
for a better tomorrow for the Turtle Mountain Band of Chippewa 
Indians.
    [The statement of Ms. LaCounte follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you very, very much. Thank you.
    Mr. White Owl.

                  STATEMENT OF ROGER WHITE OWL

    Mr. White Owl. Well, good morning.
    [Speaking in Mandan, Hidatsa and Arikara.] Hello and 
greetings in all three languages of the Mandan, Hidatsa and 
Arikara Nation.
    Good morning, Chairwoman and Members of the Committee. My 
name is Roger White Owl. I work for Chairman Mark Fox as the 
Chief Executive Officer of the Mandan Hidatsa and Arikara 
Nation. Thank you for this opportunity to testify today.
    Our Fort Berthold Indian reservation is in Western North 
Dakota along the Missouri River. We reserve these lands through 
a series of treaties and agreements with the United States, 
beginning with the 1851 Fort Laramie Treaty. Ever since the 
treaty of Fort Laramie, there have been difficulties and great 
challenges and government relationship with the United States. 
Today, voting and election administration is one of them.
    I am a citizen of the Mandan Hidatsa and Arikara Nation, 
and I voted in Tribal elections. I am also a citizen of the 
United States, and I proudly served in the United States Marine 
Corps to provide defense for these lands. But as a Tribal 
member living on a reservation, I do not have the same ability 
to vote as other United States citizens. This is unfair and 
must be corrected.
    We have a treaty and trust relationship with the United 
States, but this is not upheld in the area of elections. 
Instead, we are required to vote according to State laws. This 
is wrong. States have no business passing laws and determining 
polling places for Indian tribes. We do not have a treaty and 
trust relationship with the State of North Dakota.
    When the State runs the elections and comes up with voting 
laws, they don't have to ensure that Tribal members can cast 
their vote. The State does not work with us to make these 
voting places accessible for our members. This is wrong and 
suppresses the Tribal vote.
    The MHA Nation asks that the Subcommittee raise this to the 
highest levels of House leadership. The Federal Government, not 
the States, should work with tribes to come up with the voting 
rules that will work on all our reservations. The Federal 
Government should also work with us to determine how many 
polling places are needed on our reservation. And the Federal 
Government should provide funding to support these polling 
places.
    The State should have no part in our right to vote in the 
elections. In fact, North Dakota is working hard to keep Tribal 
members from casting a vote. Recent elections here have been 
very close, decided by a few thousand votes. If a Tribal member 
can't cast their vote, candidates they support that support our 
issues can't get elected.
    As you know, in 2017, North Dakota passed a law that was 
designed to reduce the Tribal vote. The State laws requires IDs 
to have the current residential street address. This goes 
beyond, beyond the typical voter registration requirements. Our 
rural reservations and housing systems were not set up that 
way. Many members use a P.O. box for their addresses.
    We recently began developing community streets and housing 
with residential addresses, but our reservation is mostly 
rural. The State knew this, and they used it to suppress Tribal 
voters.
    The MHA Nation has more than 16,000 members. Almost 6,000 
of our members are of voting age and live on or near the 
reservation. Remember, elections in North Dakota get decided by 
a few thousand votes. Most of our members have IDs that list a 
P.O. box as their address. The MHA Nation had to step in to 
take action to make sure that Tribal members' votes would be 
counted. As fast as we could we began issuing new Tribal IDs 
and created street addresses for our members and their homes. 
Our enrollment office had limited staff and resources to do 
this work. In about a month and a half, they issued 456 new IDs 
with new addresses. We did not get any support, any support, 
from the State of North Dakota or Federal trustees to do this 
work. Some Tribal members had to drive for hours to get a new 
ID every day.
    There were long lines of people waiting to receive new IDs, 
especially during lunch breaks. I am sure many people were 
unable to get the new ID. Even with all this work, about one-
third of our members still do not have Tribal IDs. In addition, 
many of our addresses we use to make these IDs may not be 
accurate for the next election. Many Tribal members listed a 
family home or a home where they are currently staying. This is 
not voter fraud. This is a result of an unworkable State law 
being applied to our reservation.
    We also do not have enough polling places. Two important 
polling places on our Four Bear segment and Mandaree segments 
were recently closed. Four Bears is one of the major economic 
hubs in our capital. With only a couple polling places, many 
Tribal members had to drive 80 to 100 miles round trip to cast 
their vote. This is unacceptable.
    The Federal Government must provide resources and staff for 
polling places on Indian reservations. The MHA Nation has a 
government-to-government relationship with the United States. 
Indian tribes contributed vast resources to the founding of the 
United States. Our voters must not be denied the ability to 
vote by State laws.
    It is time for the Federal Government to fulfill its treaty 
and trust responsibilities to ensure that Tribal members can 
vote. We need ID requirements that work for us, and we need 
enough polling places so that our votes can be counted.
    Thank you for this opportunity to testify today. Thank you 
to the Standing Rock Nation for hosting this hearing. And thank 
you for the Committee for hosting this hearing. I am available 
to answer any questions.
    [The statement of Mr. White Owl follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. I thank you all so much for your 
testimony.
    Now the Committee will ask questions. We will each have 5 
minutes as well.
    Before my time, I would prefer to close, so I am going to 
yield to Mr. Butterfield for 5 minutes.
    Mr. Butterfield. Thank you to the Chairwoman for convening 
this very important hearing today and thank you for your 
leadership.
    For those of you who don't know, Chairwoman Fudge has 
scheduled seven of these hearings across the country from 
Brownsville, Texas, to North Dakota. I believe this is number 
three of seven. And thank all of you, and to the future panels, 
for your participation today.
    I really came today to listen. As Members of Congress, we 
do quite well in speaking and talking. But I really came today 
to listen. The four of you have given very valuable testimony 
today, and I am going to take what you have said back to 
Washington.
    It is our responsibility, as Members of Congress, to 
protect the right to vote; not just for African-Americans or 
Native Americans or Hispanic Americans but protect the right to 
vote for every American. And what I have heard here today seems 
to suggest to me that there is a deliberate effort in both 
Dakotas to suppress a portion of the vote in these States, and 
I am very, very concerned about it.
    I am a little naive when it comes to some things about 
Indian reservations, and so you are going to need to help me 
just a little bit with this.
    Are you able--does the law give you the right to 
participate in local elections and elections for the State 
legislature and the like?
    Mr. White Owl, do you participate in State and local 
elections?
    Mr. White Owl. Madam Chairwoman, and the rest of the 
Committee, yes, we do. It is that--we are allowed to vote, yes. 
It is not that we are being totally denied it. But sometimes 
the systematic portion of it within the local elections, in and 
of itself, specifically for us at Fort Berthold, is that our 
voting district was kind of in a unique position. And this is 
something--with the State elections.
    Unfortunately, we had a legislator resign. It wasn't made 
public in a timely manner for us to hold another special 
election and so the majority party was able to appoint a person 
to do that representation of the Fort Berthold Indian 
Reservation in District 4 in North Dakota.
    Mr. Butterfield. I am sorry.
    Mr. White Owl. I am sorry. Just to put it in context, there 
is a northern and a southern part in our district, District 4, 
which we can get that information to you as soon as we can. The 
southern portion of it encompasses the Fort Berthold Indian 
Reservation and the northern portion of it encompasses non-
Indian communities.
    It is gerrymandered in a way that is a little suppressive 
to us in that capacity. And in this instance, the chairperson 
of the Republican Party did not allow enough public time--or 
public announcement to hold a special election. They were able 
to appoint somebody from their own party.
    Mr. Butterfield. Let me ask you this. Are there any Native 
Americans who serve in the State legislature in North Dakota?
    Mr. White Owl. In North Dakota, we have two legislators, 
yes.
    Mr. Butterfield. Out of how many?
    Mr. White Owl. Wow. I would have to get that number and get 
back to you on that one. I don't know offhand.
    Mr. Butterfield. Ms. LaCounte, do you know, right off the 
top of your head, the size of the State legislature in North 
Dakota?
    Ms. LaCounte. From recent votes, I have seen legislation 
that has been relevant to us. There is at least 45.
    Mr. Butterfield. So Native Americans do run for the State 
legislature from time to time; is that correct?
    Mr. White Owl. Yes, sir.
    Mr. Butterfield. Okay. Are they often elected or often not 
elected?
    Mr. White Owl. I would have to say it depends on the 
demographics of where you are at, the proximity to that. Turtle 
Mountain has had a very consistent Native American voice and 
vote that has been able to ensure that that happens. Fort 
Berthold, unfortunately, as I said, has been put into a 
district that isn't very favorable to have so. We haven't had a 
Native American legislator from Fort Berthold serve in our 
State legislature.
    Mr. Butterfield. Mr. Walker, do you have redrawing of the 
districts every 10 years like most States?
    Mr. Walker. Yes. The gerrymandering, which was mentioned, 
you look at the district here from which Standing Rock or Sioux 
County, it goes into Morton County, which is technically, you 
look at it realistically, it is a Republican stronghold. And if 
you look at it from a factual point of view, you have--the 
demographics doesn't represent the true representation of the 
people within that district, because you have Tribal members 
living here who still have a distinct culture language, world 
point of view, which doesn't align with either party, I would 
say, and----
    Mr. Butterfield. Do you have input in the drawing of the 
lines?
    Mr. Walker. Not that I know.
    Mr. Butterfield. Thank you.
    My time has expired. I yield back.
    Chairwoman Fudge. Thank you.
    Ranking Member Davis.
    Mr. Davis. Thank you, Madam Chairwoman. Thank you to all 
our panelists. I appreciate the opportunity to speak with you. 
I appreciated hearing your concerns. As somebody who 
understands close elections, I get the fact that you want 
everybody to be able to cast a ballot. You want to make sure 
that no one is disenfranchised. Coming from Illinois, where the 
tables are turned when it comes to partisan majorities in our 
State, I would love for those of you who are concerned with the 
gerrymandering process to please come down to Illinois when we 
start redrawing our lines here in a few years, because many of 
the same concerns that you may have with the legislature here 
in North Dakota, we certainly have with our legislators in my 
home State, too.
    I want to ask you Mr. White Owl, you mentioned voter 
turnout. You know, we share the same goal, that we want every 
registered voter who is eligible to cast a vote to be able to 
do so. In and around the counties that you serve, was the 
turnout in 2018, a midterm election, higher or lower than 2014, 
the last midterm?
    Mr. White Owl. I would have to definitely Madam Chairwoman 
and Representative Rodney Davis, I couldn't have the direct 
numbers on it for you right now at this time and I definitely 
can get back to you with those.
    Mr. Davis. What counties in North Dakota are in your Tribal 
area?
    Mr. White Owl. We have six counties that encompass a 
million-acre Indian reservation in Northwest Central North 
Dakota. And so as we are looking at it, it is one of those 
things, when we talk about proximity and the accessibility to 
voting, it is definitely an issue where we have--also we have a 
reservoir in the middle of our reservation created by the Pick 
Sloan Act that also impedes--has a bit of an impediment where 
we have parts of a county----
    Mr. Davis. Okay. I understand. I am losing some time here, 
and I got to get to some other witnesses. I appreciate the 
geography issue.
    But in the end, I am looking at county turnout. And it 
looks like it was substantially higher in 2018, midterm 
election, than it was in 2014. I am looking at Sioux County, 
that had a higher turnout than even the Presidential election 
in the 2018 midterm. So it looked like a lot of the issues 
that--you know, a lot of the outreach was successful in getting 
people to the polls even in a midterm election, higher than 
Presidential election levels. That is good news. So we are 
working in the right direction.
    Mr. Walker, are you the only Tribe that cuts into two 
States?
    Mr. Walker. Yes.
    Mr. Davis. Okay. So the rest of you are working 
consistently just with the North Carolina leader--or North 
Dakota leaders, correct?
    So I will focus on more North Dakota.
    North Dakota is the only State in the Nation that has no 
voter registration process, right?
    Mr. White Owl. That is correct.
    Mr. Davis. Okay. We all have voter registration. We all 
have to go and register beforehand, provide who we are, street 
addresses. And many of my rural communities that I serve have 
similar issues where they go get their mail at a P.O. box. But 
they also have to then use their 911 address. It seems to me 
that, with a nonregistration State, is it easier to then go 
vote on Election Day, or is it more difficult?
    Mr. White Owl. When you are talking about--Madam Chairwoman 
and Representative, when you are talking about that, there is 
kind of not the same type of issues that we deal with when you 
are talking about registration in that capacity, because we 
have proximity issues and distances that we have----
    Mr. Davis. You guys have proximity and distance issues, 
yes. But what about registration versus a nonregistration 
State?
    Mr. White Owl. The process portion of it is, it is okay. 
That portion of it, portion is----
    Mr. Davis. You don't want to become a voter registration 
State?
    Mr. White Owl. No. I think North Dakota has some of the 
most progressive laws in that capacity. However, it is due to 
the simple fact that you have such a rural State, and the 
accessibility portion of it does become an issue for----
    Mr. Davis. And that is something you have addressed with 
your State leaders for sure?
    Mr. White Owl. We have attempted to, yes.
    Mr. Davis. All right.
    Mr. Walker, Madam Chair, Ms. LaCounte any comments on 
turnout?
    Mr. Walker. I would say the voter turnout wouldn't have 
been as high as it has been had not our Tribe and our allies 
pushed for that to happen.
    Mr. Davis. Right. Voter participation action----
    Mr. Walker. We could say that. We could say that. But it is 
all--it is all up to interpretation, because had the Tribes 
stepped back to see what effect the North Dakota voter law had, 
let's look at it as an experiment. Those numbers would have 
been twice, if not 60 percent lower. But the impact intended by 
the State would have taken place.
    The question that you are asking to state the--I know your 
leading question is to state that, yes, there was there was 
higher voter turnout, but that was because of the collective 
actions of all the people involved to combat the intended 
effect of the voter laws. Whatever the intent, you take a look 
at the realistic, the truth, the facts. We must be objective 
here.
    Mr. Davis. Right. So that is what I am trying to get at 
here with the numbers. I mean, the numbers are--the turnout was 
higher. What you are telling me is the intention that you are 
talking about was not achieved?
    Mr. Walker. What I am talking about is that there is a 
law--you put something into place, and you are--you keep 
referencing the higher turnouts. Those higher turnouts wouldn't 
have happened if there wasn't a collective effort.
    Mr. Davis. Are you going to continue those collective 
efforts?
    Mr. Walker. Yes.
    Mr. Davis. Good.
    Mr. Walker. We are up against something that--and without--
I guess, to a point, we have to do what we have to do. We have 
been doing this for generations upon generations. Even before 
the establishment of the United States of America, the 
corporate government, we have been in here for time immemorial, 
and we will continue to survive. We will do what we have to do.
    Mr. Davis. I will leave with this: I know my time is out, 
and Madam Chairwoman has been very generous to me. But I would 
remind you that the turnout was even substantially higher than 
the 2010 midterm where this law wasn't in place.
    So keep up the efforts. Keep continuing to get people 
engaged. We want everyone who has an opportunity to vote to be 
able to do so.
    Thank you.
    Chairwoman Fudge. Thank you.
    Chairman Thompson.
    Mr. Thompson. Thank you very much. Let me thank the 
witnesses. My accent will probably give me away. I am from 
Mississippi, so pardon my accent.
    Just for the record, in Mississippi, my State, you can 
register to vote with a post office box. You don't need a 
physical address as of this day.
    I am registered, like everybody else in my little community 
of 500 people. We don't have door-to-door delivery. You get 
your mail at a post office box. You get your jury summons at a 
post office box. You don't get it at a physical address, 
because you have to have a post office box in my community.
    The other thing is, to each of the witnesses, by requiring 
a physical address for registration, is it your testimony to 
this Committee that that caused a financial burden on 
individuals? Or what burden did it cause by the implementation 
of this requirement to have a physical address?
    I will start with Mr. Walker and we will go----
    Mr. Walker. Well, the financial burden has to fall 
somewhere. You look at that--we have--had the Standing Rock 
Sioux Tribe not waived the price or--the $5 fee for the Tribal 
IDs, you look at the testimony, 807 were issued. That, in 
itself, is substantial to take a look at not only supplies, the 
time, and also the effort from our partners and allies who have 
actually the transportation. And like Mr. White Owl's 
testimony, also that reflects the facts that there is a lot of 
area we have to travel just to see to our basic needs, such as 
a doctor, go to the store, do those different types of things. 
I commute 26 miles every day just to come here and conduct 
business.
    If you are in a financial hardship time, you know, that is 
$40 guaranteed that is going to have to come out of pocket. If 
you are living on a fixed income, just like a relative has said 
here, that is bread and milk for a week. You know, are you 
going to eat or are you going to vote? It comes down to those, 
literally.
    We talk about all these different Maslow's hierarchies of 
needs, all different things here. Needs come before everything 
else. And that is the basis of it.
    When you have to choose between having supper for your 
children or grandchildren or multigenerational living units, 
you are going to choose to take care of your family first. In a 
way, the cultural--or the lack of cultural understanding and 
knowledge, the gap is so wide that at times, I feel like I am 
literally going into a different world if we go to the State 
legislators or State leaders, because there is a lack of 
understanding or maybe even a lack of wanting to understand the 
people here on Standing Rock.
    So with that being said, there is a cost. Who eats that 
cost if the financial--if the capital is not there? Nobody is 
going to eat the cost and nobody is going to vote so, yes, the 
Standing Rock Sioux Tribe did waive some of that. Ultimately, 
Standing Rock Sioux Tribe is who had to take care of that cost 
in order so that--and I will say this for the record, too, is 
that the reason we have done that is because, as elected 
officials here in this body, we also took an oath to the 
Constitution of the United States. We have to uphold those 
guaranteed so called rights. So we have to guarantee that our 
membership had the right to vote whenever those types of 
things--and there is a lot of different angles and everything 
that we can interpret and come into that with that being said. 
But in regards to the situation we are talking about with North 
Dakota's voting ID law, that, in itself, is something that we 
have to really take a look at. And it didn't catch us by 
surprise either, because it was something we knew was coming.
    Mr. Thompson. I would assume that the other three witnesses 
agree with Mr. Walker's statement. Chair Pearson.
    Ms. Pearson. Yes. I would have to agree there. And as far 
as the money that was--or the funds that were used for this, 
what I didn't include in my testimony either was--the 
transportation costs. And I know there was people that, you 
know, we asked if they can haul the voters to the sites, 
because a lot of people lack transportation. So that is 
something that wasn't included in here either.
    But, you know, like Mr. Walker stated, the Tribe has to eat 
this cost. But I guess it was well worth it, because we did get 
a good turnout. And we do cover four counties there that, you 
know, I can speak for--that Native Americans are a part of.
    Mr. Thompson. Thank you, Madam Chairwoman.
    Chairwoman Fudge. Thank you so much. And thank you all. And 
I am just going to try to wrap up as we prepare for our next 
panel.
    Let me just first thank you for your patriotism, for 
wanting to participate in this democracy. I thank you for that.
    And just because your results are better than some might 
have expected, due to your strength and your fortitude, it 
still doesn't make it right. So I thank you for doing what you 
can to be good Americans.
    I also want to apologize for what seems to be the neglect 
of the Federal Government to stand up to the promises that it 
made to you and all of those on reservations in this country.
    As you look at the amount of poverty, as you look at the 
amount of homelessness, and all of the challenges that you 
face, I, again, congratulate you for making sure that you still 
live up to what you believe is your responsibility as an 
American, because I know that just as we all pledge allegiance 
to this country, and we should be treating you in a much, much 
better way. So I thank you for being here.
    I just want to ask you that if there were two things you 
wanted us to go back and put into this report today, what would 
it be?
    I am going to start with Mr. White Owl and go straight down 
the line.
    Mr. White Owl. Well, I think it is definitely to remember 
the government-to-government and trust responsibility 
relationship up with tribes that that goes with--between the 
tribes and the Federal Government of the United States. And in 
a solution form, to go back and remember is to help us with 
helping to be able to ensure votes to the polling places and 
proximity. Do not forget proximity and the distances that have 
to be traveled. For us at Fort Berthold, it was in the Four 
Bears District. We had to travel 80 miles to Watford City round 
trip, or to a little tiny town that is north of Watford City 
called Cartwright that is about 120 miles round trip, for us to 
be able to cast a vote if we weren't able to get to the mail-in 
ballots. So it is one of those things where, please, take those 
two things back with proximity and accessibility.
    Chairwoman Fudge. Thank you.
    Ms. LaCounte.
    Ms. LaCounte. Thank you, Mr. White Owl. I would agree with 
Mr. White Owl's comments. Thank you, Chairwoman Fudge. And 
please don't forget about us. We are here, often with 12 to 20 
people in one household. So accessing an ID is burdensome for 
our communities. The knowledge and work towards uniform street 
addressing is something that is really foreign to us.
    I appreciate your time.
    Chairwoman Fudge. Thank you.
    Ms. Pearson, just know that in this age of technology, if 
we can't find you, it is just ridiculous. It is just outrageous 
that we can't find somebody who has lived in the same place for 
20 years.
    I don't know if it--if this is going to make a difference, 
or if it is worth something looking into, but remember next 
year is our Census. And perhaps, maybe, we can blend this 
together where everyone, you know, gets a fair chance at 
everything, and we are able to count our numbers. We are maybe 
able to maybe, you know, do physical addresses for people like 
that. But I think it is an important thing to try and blend it 
in here with the North Dakota voting laws that, you know, we 
encounter today and the obstacles that we have to jump over.
    But I know our Census was kind of understated last time. 
And I look forward to, seeing those increase. My chairmanship 
with the Spirit Lake Tribe is going to end next month, and I 
have not gone--taken any steps to run again or anything like 
that. But I do look forward to helping my people at the Spirit 
Lake Tribe. And this is one thing I asked if I can help with is 
the Census and this voting law that, you know, I have plenty of 
time to work on that. But I would like to--to go back and 
consider something like this to where we can blend it together, 
and maybe get two projects done, you know, with one big effort. 
And that effort is going to include all of us.
    And I--any questions, you know.
    Chairwoman Fudge. Thank you.
    You know, it is just interesting to me that we are trying 
to take money away from the Postal Service, and we can't find 
you. We can't deliver to your house. The government maybe 
should just put an address on your house and make the post 
office deliver to you.
    Mr. Walker, please, close us out, briefly.
    Mr. Walker. Thank you, again.
    One of my recommendations, first and foremost, is that this 
Committee, and also not only members of this Committee but also 
the House of Representatives, is to educate yourself. It has 
been very evident today that the lack of knowledge and 
understanding of distinct Tribal Nations here today, there is a 
lack of understanding. And that, to me, is concerning, because 
the decisions that are made on our behalf in the House. I would 
say after this closeout, I would like a copy of what--if there 
is a plan of action in regards to this. Just don't let this be 
a check the box and say we went and we had field hearings doing 
this. It happens all the time. And I am not saying this to be 
pessimistic. I am saying it with optimism, because you are 
actually here. And I thank you for that.
    Whatever we have in our written testimony, don't let it 
just be that. Reach out to all the Tribal Nations. Get to know 
what is going on day to day in our Nations, because we didn't 
do this to ourselves, obviously.
    Chairwoman Fudge. Thank you.
    Let me just say on behalf of the Ranking Member and myself, 
the Ranking Member is here because we do want this to be a 
bipartisan effort. Let me assure you, you have my word, you 
will get a report. You have my word. We are collecting this 
data so that we can do a report, so that we can go back to the 
Congress of the United States and say to them, this is what 
needs to happen to ensure that every American has the right to 
vote, the unfettered, unabridged right to vote. So you will get 
a report. It will probably be sometime in the fall, but you 
will get a report.
    I want to thank all of you for being here. I especially 
want to thank our Ranking Member. I want to thank all the 
witnesses, of course, for their testimony. And we have your 
written testimony as well as your verbal testimony.
    I would like to thank Standing Rock Sioux Tribal Council 
for hosting us today. It has been a pleasure to get to meet you 
all. I thank you for the work that you are doing on behalf of 
the tribes of North and South Dakota.
    I want to thank the staff who has been so helpful in making 
sure that this happened today. Lastly, I want to thank my 
colleagues for being here.
    And with that, this the Subcommittee--oh, next panel. I 
don't want to adjourn. We have another panel.
    If this panel could allow us to reset. If you could just 
come up, you know, we would like to take a photograph for our 
report, if that is okay with you all.
    Please come up.
    [Discussion off the record.]
    Chairwoman Fudge. Good morning again. Thank you all. We are 
going to start our second panel. I want to introduce the 
witnesses on the second panel.
    I am going to start with the other end, because we 
understand that Representative Buffalo does have a tight time 
schedule. We are going to start on her end, and I would 
introduce North Dakota State Representative, District 27, Ruth 
Buffalo.
    Secondly, we have Prairie Rose Seminole, a community 
organizer.
    Thank you for being here.
    Lastly, Jacqueline De Leon, staff attorney, Native American 
Rights Fund.
    Thank you all so much for being here.
    Ms. Buffalo, you are recognized for 5 minutes.

STATEMENTS OF RUTH BUFFALO, NORTH DAKOTA STATE REPRESENTATIVE, 
 DISTRICT 27; PRAIRIE ROSE SEMINOLE, COMMUNITY ORGANIZER; AND 
JACQUELINE DE LEON, STAFF ATTORNEY, NATIVE AMERICAN RIGHTS FUND

                   STATEMENT OF RUTH BUFFALO

    Ms. Buffalo. [Speaking in Mandan, Hidatsa and Arikara.] 
Good morning. [Speaking in Mandan, Hidatsa and Arikara.] My 
name is Ruth Buffalo, Woman Appears. Chairwoman Fudge, Ranking 
Member Davis, thank you for having me here today.
    Here in North Dakota I represent Fargo's District 27, which 
is 370 miles from my traditional homelands of the Fort Berthold 
Reservation.
    Fargo District 27 is not a majority Native American 
district. By going door to door, knocking on thousands of 
doors, I was able to earn the trust of the people of Fargo, and 
I am proud to represent them today.
    Sadly, even if I were to run in my reservation, that 
district would not be majority Native American. Most of my 
reservation is encompassed by the legislative District 4. Only 
one MHA member has ever been elected, but that individual lived 
in Garrison, which is located off the reservation.
    District 4 overwhelmingly does have a White population that 
overwhelms the Native vote. Tribal citizens make up 31.8 
percent of the district despite there being a sizable Native 
American population; 5,632 members currently live on the Fort 
Berthold Reservation, with another 3,655 living in close 
proximity yet there are no majority Native American districts. 
If maps were drawn another way, Native Americans could easily 
support their own district.
    In fact, the dilution of the Native vote is even more 
outrageous if you look at the counties. There are six counties 
that intersect the Fort Berthold Reservation, ensuring no 
Native American representation among county seats.
    It is disrespectful to the people of the Fort Berthold 
Reservation to subject them not only to voter dilution, but 
also to confusion as they move from county to county to vote. 
Not one county official is currently responsible for ensuring 
that the needs of all of the Fort Berthold people are being 
met.
    There are also voting irregularities, as mentioned by our 
Tribal dignitaries. In the recent midterm election of 2018, two 
traditional voting precincts were shut down within the exterior 
boundaries of the Fort Berthold Reservation, Dunn County North 
Fox precinct located in Mandaree at St. Anthony Church, 
McKenzie County Four Bears precinct. If the county 
representatives more accurately reflected the MHA people, they 
would have known that these were important voting sites and 
would not have shut them down.
    The voter ID law is the latest example of North Dakota's 
attempt to disenfranchise Native voters. The law's chief 
sponsor was my predecessor in the legislature. I can attest 
that as I campaigned and went door to door, Natives and non-
Natives alike were outraged by the law. I heard over and over 
again people saying, ``How could they do that?'' Because if 
people don't have addresses, they shouldn't require them to 
show an address if they are qualified to vote. It is plainly 
unfair to everyone who has heard about the law.
    To me, I question why would anyone intentionally prohibit 
an individual from practicing their right to participate in our 
democracy.
    Since 2016, the world was made aware of exactly how unjust 
the original inhabitants of this land, the Tribal Nations, are 
treated. North Dakota has unfortunately, been referred to as 
the deep North, as many others have witnessed the unjust 
treatment of our Tribal Nation neighbors.
    If the intent was not to suppress voters' access to voting, 
why does the State still defend this law? Why don't they allow 
the court orders that would have allowed people to vote to 
stand? The maps are drawn unfairly, and the Native vote is 
suppressed through North Dakota's current voter ID law.
    I am proud to be the first Native American Democratic woman 
legislator, but I should not be alone. American Indians 
comprise only 1.4 percent of the North Dakota Legislature, but 
they represent 5.5 percent of the State population. 
Furthermore, we have a total of 141 State legislators, 94 in 
the House, 15 are Democratic-Nonpartisan League, 79 are of the 
majority, the Republican Party. In the Senate, we have a total 
of 47 members. Ten are Democratic-Nonpartisan Leaguers and 37 
are of the majority party, the Republicans.
    But representation does matter. I can personally attest 
that representation is important. Since my time in the 
legislature, I have been able to introduce legislation to 
address long festering and ignored problems. One bill requires 
law enforcement training on missing and murdered indigenous 
people. Another bill starts a repository collecting data of 
missing persons, including our indigenous population. Two other 
bills require hotels to train their staff to identify signs of 
human trafficking and to teach them what to do to respond.
    I also introduced a bill that would allow Native American 
students to wear regalia at graduation, a point of cultural 
pride that is too often misunderstood and disparaged, even 
though Native American students should have the right to 
proudly represent who they are when they are being honored for 
their accomplishments.
    Prior to my time at the legislature, in the 65th 
Legislative Assembly in 2017, there was horrendous legislation 
being introduced which primarily targeted the Native Americans 
in our State of North Dakota, triggered by the opposition of 
the Dakota Access Pipeline. It would allow for individuals to 
hit protesters with their vehicles without legal consequence. 
How is that a civil response, no matter what one thinks about 
the pipeline? To this day, there are a few bills lingering from 
this very mindset in this session of the 66th Legislative 
Assembly.
    Indeed, too often Native people in the State of North 
Dakota are disparaged and put into second class citizen status. 
As a public official, unfortunately, I have been subjected to 
this abuse. When I was running, I would receive racist calls. 
For example, one woman mocked me and called me ``injun.'' After 
I won public office, I have received threats against my 
children.
    Being on the receiving end of these constant threats is not 
only frightening, it is demeaning and racist, and that type of 
behavior should not exist in 2019.
    I will continue to work hard to represent the people of 
Fargo, North Dakota, and Native Americans across the State. 
However, Federal action is needed to make sure our voices are 
not abused. Thank you for coming today to listen and for 
bringing attention to these injustices.
    [Speaking in Mandan, Hidatsa and Arikara.] Thank you.
    [The statement of Ms. Buffalo follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you.
    Ms. Seminole.

               STATEMENT OF PRAIRIE ROSE SEMINOLE

    Ms. Seminole. [Speaking in Arikara.]
    Thank you, Chairwoman Fudge and community members. Thank 
you for coming and welcome to North Dakota. And thank you to 
the Standing Rock Nation for hosting.
    As a young adult, I started organizing around issues such 
as healthcare, marriage equality, economic equity, and others. 
Voting and civic engagement have been a revolving door of 
efforts for nearly 20 of my years, constantly needing to fight 
for a right given to all citizens.
    As you read earlier, Chairwoman Fudge, American Indian 
people were given citizenship and the right to vote in 1924, 
whether we wanted to or not. Unfortunately, States had the 
authority to implement voting barriers that prevented our 
American Indian population from voting.
    In North Dakota, we had to give up our Tribal identity to 
vote, essentially a strategy of erasure of the indigenous 
people from this area. If you consider that American Indians 
have served in every branch of the U.S. military for well over 
the past 200 years, it goes without saying that their efforts 
and histories of distinguished services should be recognized. 
The fact that American Indians serve at a high rate and have a 
higher concentration of female servicemembers than any other 
ethnic demographic in the United States demonstrates we still 
have to fight for our right to vote.
    The Voting Rights Act of 1965 created a false ending of the 
State-by-State efforts of Tribal Nations fighting the issues in 
court for the right to vote. The States still found ways to 
create arbitrary barriers to voting.
    North Dakota in 2010, for example, during the fight for 
affordable healthcare and workers' rights, our organizers, 
along with Democratic leadership, including Senator Byron 
Dorgan, were fighting to create more polling locations for 
Tribal voters, specifically in Benson County, on the Spirit 
Lake Reservation. At that time, there was only one polling 
location, that was inaccessible to all voters in the district. 
The decision was made to make an additional polling site, only 
to have that site made inaccessible by flood waters in the 
spring.
    Consistently, even in 2018, the previous county auditors of 
Sioux County for the Standing Rock Reservation inefficiently 
equipped the polling sites with ballots, many times running out 
and denying people the opportunity to vote because there were 
no more ballots.
    The Fort Berthold Reservation is divided by six voting 
districts that are set up to confuse and create barriers 
because of the distance voters have to travel to cast an in-
person ballot. People who drove an hour to vote only to be told 
that they are at the wrong polling location. A trend is to also 
make some or all our precincts on Forth Berthold Reservation 
mail-in only, which also creates a barrier as postal stations 
are closing in the rural communities of North Dakota.
    As an organizer, we organized people to write letters to 
editors to create visibility on the issue, as well as people to 
testify at the State legislature hearings on the need for more 
polling locations. Legislators often refer to the county 
auditor's authority of establishing polling locations and how 
many ballots to have on hand.
    In 2009-2010, we were basically told that it wasn't a big 
enough issue for State legislators to waste time on the issue 
of American Indian voters having barriers in place in one of 
the most voting-friendly States in the country.
    In 2012, we started to see polling locations deny people 
their right to vote for not having proper identification. 
Voters could still vote by having an affidavit filled out on 
their behalf. In the next year, the State legislature voted to 
end the affidavit system and required voting IDs to have a 
physical address.
    You have heard some of this testimony before, so I want to 
fast forward here.
    In 2018, I partnered with Tribal colleges and funders to 
educate American Indian voters of their power of voting, 
especially in response to the Supreme Court upholding the North 
Dakota law; in essence establishing a crisis across Tribes in 
North Dakota to equip voters with acceptable forms of 
identification. The State of North Dakota did not put forward 
any effort to fund the mandated requirement.
    Tribal members, citizens of North Dakota, implemented 
incredible efforts to build voter turnout accomplished in the 
2018 elections with less than a month to scale local efforts to 
reach the potential tens of thousands of Native voters in North 
Dakota who needed new IDs to vote.
    Election Day 2018, I was also present in New Town, North 
Dakota, where students were denied their rights to vote and the 
administration of the Tribal college, the Nueta Hidatsa Sahnish 
College, granted residency papers for these students who were 
later allowed to vote because of the leadership of the Tribal 
college.
    I learned in 2018, working with national organizations 
pushing the Native vote, that as American Indian voters we do 
not show up to the vote unless we are engaged. We as a voting 
bloc have been left out of the civic process for so long that 
some have grown apathetic. Yet we are the most legislated 
demographic in the entire county. We have to vote. We have 
power when we vote.
    In 2018, we emphasized that it is only in recent history 
that we have been allowed to vote and mobilized efforts around 
the values of education, healthcare, infrastructure, and 
sovereignty that are all at risk when we don't vote. Efforts 
raised money for Tribes to become equipped with technology that 
met the need to make the IDs needed for Tribal members and 
citizens of North Dakota.
    There continues to be barriers, interpersonal and systemic, 
at our polling locations in our Tribal communities and for our 
Native voters across the State.
    The result of high voter turnout of Native voters in North 
Dakota has always been the result of significant on-the-ground 
organizing efforts and education happening in Tribal 
communities by volunteers and paid staff from partisan and 
nonpartisan organizations committed to building consistent, 
engaged, informed voting communities.
    I continue to do this work so that there are no more 
barriers in place for American Indian voters and advance our 
inherent rights of citizenship.
    Thank you.
    [The statement of Ms. Seminole follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you.
    Ms. De Leon.

                STATEMENT OF JACQUELINE DE LEON

    Ms. De Leon. Thank you, Chairwoman Fudge, Ranking Member 
Davis, and Members, for having me testify today and for coming 
to Indian Country. And thank you to the Standing Rock Tribe for 
this warm welcome.
    My name is Jacqueline De Leon. I am a member of the Isleta 
Pueblo and a staff attorney for the Native American Rights 
Fund, also known as NARF, the Nation's oldest nonprofit law 
firm dedicated to advancing the rights of Native Americans.
    Today I am going to give you a brief overview of how the 
voter ID law came to be, because it provides important context 
for the powerful testimony we are hearing today.
    In 2014, NARF received a request for assistance regarding 
Native Americans in North Dakota that were being turned away 
from the polls. NARF began its investigation and was appalled 
to learn that veterans, school teachers, elders, and other 
lifelong voters were being rejected by poll workers that had 
known these individuals their entire lives. NARF decided that 
this was a case worth investing our limited resources.
    I mention resources because the burden of proof under the 
Voting Rights Act and constitutional cases, alleging voter 
discrimination is extremely high, which means that in order to 
prevail in these cases litigators must invest substantial 
resources, and, unfortunately, NARF cannot address every 
injustice facing Native American voters today.
    During the course of our investigation we were alarmed to 
learn that one of the legislature's motivations for passing the 
voter ID law was to suppress the Native American vote because 
of the unexpected victory of Democrat Heidi Heitkamp in the 
2012 Senatorial election, who won by less than 3,000 votes. The 
Native American vote was widely attributed to her win.
    We know this was their motivation because in 2011 the North 
Dakota Legislature considered a new voter ID law that would 
have limited the valid forms of voter ID and gotten rid of the 
State's affidavit system where a voter swears to their 
qualifications.
    Throughout consideration of the bill, legislators on both 
sides of the aisle raised concerns about disenfranchisement. 
Additionally, the legislature was informed during these 
deliberations that there were Native Americans that lacked 
residential addresses. The legislature decided 38-8 on a 
bipartisan basis not to enact the proposed changes to the voter 
ID laws given the concerns about disenfranchisement.
    After Senator Heitkamp's win, however, the legislature 
quickly changed course and immediately passed the law that 
greatly restricted the acceptable forms of voter 
identification, required residential addresses on all IDs, and 
eliminated all fail-safes. The legislature never analyzed 
whether Native American voters it was told lacked addresses in 
2011 still lacked addresses. Indeed, those Native American 
voters continue to lack addresses to this day.
    Even more conspicuously, the legislature utilized a 
``hoghouse'' amendment by replacing the entire text of an 
unrelated bill with the new text to pass the bill without any 
debate. As expected, the impact on the Native American vote in 
2014 was severe.
    In 2016 NARF sought an injunction on the law on behalf of 
seven brave Turtle Mountain plaintiffs that were 
disenfranchised by the laws. The U.S. District Court in North 
Dakota granted the injunction, finding the law violated the 
U.S. Constitution and required that North Dakota again 
implement the affidavit system. Judge Hovland stated, ``It is 
clear that a safety net is needed for those voters who simply 
cannot obtain a qualifying ID with reasonable effort.''
    In 2017, in response to the decision from the District 
Court, the North Dakota Legislature amended the voter ID law. 
But despite at this point being well informed of the law's 
discriminatory effects, it did not get rid of the 
discriminatory parts of the law. It still required all voters 
to have an ID that had a residential address.
    We again brought suit, and the court granted another 
injunction barring the State from enforcing the newest version, 
but this time the State was ordered to allow P.O. boxes, which 
are utilized significantly by the Native American community due 
to their lack of addresses, to prove residency. The order also 
expanded the types of acceptable IDs.
    The State appealed to the Eighth Circuit and the Eighth 
Circuit stayed the court's injunction, allowing the law's 
requirement of a residential address to go forward. We appealed 
to the Supreme Court, which was denied.
    After the appeal to the Supreme Court was denied, 
significant media attention descended upon North Dakota. 
Senator Heitkamp was running for reelection. It was feared that 
the effects of the discriminatory voter ID law would unfairly 
impact the outcome of the race.
    NARF then took two actions. First, it worked with Tribal 
leaders and local committee activists to marshal resources. I 
personally was inspired by the decisive leadership that the 
Tribal leaders here today took. All of the Tribes quickly moved 
to administer free IDs to their members and worked day and 
night to respond. Community activists, such as Prairie Rose, 
Danielle Finn, O.J. Semans, Sr., Barbara Semans, Nicole 
Donaghy, and, notably, the high school Native American Youth 
Council on the Turtle Mountain Reservation, mounted a 
tremendous get out the vote effort. I thank these individuals 
for their heroic efforts and commend them on a job well done.
    Second, NARF teamed with local counsel Tim Purdon and the 
Campaign Legal Center to file an emergency temporary 
restraining order on behalf of the Spirit Lake Tribe and six 
individual plaintiffs, but this was denied. The Standing Rock 
Sioux Tribe has since joined the suit, which is ongoing.
    As of today, the North Dakota voter ID law still stands. 
Voters are still required to present a qualifying ID and list a 
residential address in order to vote. Yet Native Americans 
across North Dakota still disproportionately lack residential 
addresses and the resources necessary to obtain qualifying ID.
    As the cameras move on from North Dakota, so do the 
resources that made the herculean response to the ID law in 
this last election possible. Unfortunately, the story of 
discrimination and disenfranchisement in North Dakota is not an 
isolated one. Across the country, Native Americans are being 
denied fair access to the ballot box.
    Given the tremendous cost of litigating voting cases, NARF 
cannot address every injustice, and Federal action is needed to 
prevent the continued disenfranchisement of Native Americans.
    I thank you for coming to hear these stories and for 
shedding a much-needed light on these issues.
    [The statement of Ms. De Leon follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you. Thank you all for your 
testimony.
    I do know that our representative has to go back. She is in 
session, and we clearly understand that. So if any of the 
members have a question that is going to be directed to 
Representative Buffalo, if you could ask your question now so 
she can get back into session.
    We will go in order as we did before.
    Mr. Butterfield.
    Mr. Butterfield. Thank you, Madam Chairwoman.
    I think the question that I had to the last panel might 
have been more appropriate to this panel. And let me just begin 
with you, Representative Buffalo.
    Apparently there are 47 legislative districts in North 
Dakota. Am I right?
    Ms. Buffalo. Correct.
    Mr. Butterfield. Each district has a State senator.
    Ms. Buffalo. Yes.
    Mr. Butterfield. And each district has two house members?
    Ms. Buffalo. Yes.
    Mr. Butterfield. Okay. And every 10 years the State 
legislature draws the lines and creates these 47 districts.
    Ms. Buffalo. Yes.
    Mr. Butterfield. Okay. Among these 47 districts, how many 
Native Americans serve in the State Senate?
    Ms. Buffalo. One.
    Mr. Butterfield. How many serve in the State House?
    Ms. Buffalo. As of this current--this recent election?
    Mr. Butterfield. Yes.
    Ms. Buffalo. Myself.
    Mr. Butterfield. One and one?
    Ms. Buffalo. Yes.
    Mr. Butterfield. Okay.
    In drawing these lines every 10 years, do Native Americans 
have input into the drawing of the lines aside from the one 
legislator that is in the State legislature? Do they go out to 
the reservations and consult with Tribal leaders and citizens 
and have public hearings such as this?
    Ms. Buffalo. Representative Butterfield, not that I am 
aware, no.
    Mr. Butterfield. Okay.
    Do you have any suspicion that these 47 lines are 
gerrymandered in such a way that dilutes the ability of Native 
Americans to elect legislators?
    Ms. Buffalo. Representative, most definitely.
    Mr. Butterfield. The subdividing of these districts, the 47 
districts, each one is then subdivided into two parts. Do you 
have any concerns about the way those lines are drawn as well?
    Ms. Buffalo. Representative, definitely. There are grave 
concerns there. I could easily be sliced out even within the 
district that I am currently representing. And based off of the 
approach that I have taken, this issue of voter access should 
not be a partisan issue, but there is retaliation, there are 
attacks. So that is something that is on the radar daily, but I 
will not be silenced. I will continue to stand up.
    Mr. Butterfield. Please know that Section 2 of the Voting 
Rights Act is available to the citizens of North Dakota. It is 
nationwide in its application and it is a permanent law and it 
can be used to change the political landscape of your State.
    Thank you. I yield back.
    Chairwoman Fudge. Ranking Member Davis.
    Mr. Davis. Thank you.
    Ms. Buffalo, congratulations on your election. I was at the 
State Capitol yesterday. I did not get a chance to meet you 
when I went into the House chamber and went into the Senate 
chamber, but congratulations.
    Again, I am from Illinois. Many of the numbers that you 
mentioned of a majority Republican leadership in both your 
House and Senate here are flipped in my home State. Many of the 
same concerns I think Mr. Butterfield raised about 
gerrymandering are some of the similar concerns we have in my 
home State, too.
    The biggest threat that we have to fair elections is in my 
opinion, partisanship, and we have got to do everything we can 
to focus more on bipartisan solutions.
    Now, in your State representative district how many 
constituents do you represent?
    Ms. Buffalo. In District 27?
    Mr. Davis. Yes.
    Ms. Buffalo. District 27 is on the eastern side of the 
State, so it is in south Fargo. I represent at least 5,000 
constituents.
    Mr. Davis. 5,000 constituents. And how many of them are 
registered voters?
    Ms. Buffalo. Representative, within the State of North 
Dakota we do not have a voter registration requirement.
    Mr. Davis. Okay. So about 5,000 individuals. I will 
calculate a percentage. You could say over half might be 
eligible to vote. Was the turnout higher in the Fargo area, 
too, even though it is not typically a Native American 
sovereign nation?
    Ms. Buffalo. Representative Rodney Davis, the voter turnout 
was high across the United States in this midterm election 
because our communities know what is at stake. Unfortunately, 
people of color, indigenous people, women are being targeted 
right now. Hate crimes have risen within this current 
administration. People know what is at stake, and people are 
getting out to vote so that our families will be protected, 
because currently we aren't protected under this current 
administration.
    Mr. Davis. Well, Madam Representative, as somebody who 
personally had to dodge bullets on a baseball field from 
someone who was inspired by not the President of the United 
States but others, because of hateful rhetoric coming on all 
sides, I concur. There is a lot of hate, there is a lot of 
rhetoric that led me and my friends to have to run from a 
gunman screaming ``healthcare'' as he was trying to kill all of 
us one morning in Virginia almost 2 years ago.
    Watching my colleague lay on the ground and almost die and 
other friends bleeding on the ground, watching an African 
American Capitol Police hero get shot in the ankle, I can tell 
you that there is a lot of hate in the world. And it is not 
limited to the President; it is not limited to one side.
    I think we all ought to work together to make sure what I 
went through and what my colleagues went through never happens 
again, but let's not forget that. Let's work together. Again, 
bipartisan solutions are what matters here.
    And I appreciate your service. I appreciate the time. And I 
want to spend some more of my time talking to some of the other 
witnesses.
    So, Ms. De Leon, thank you for----
    Chairwoman Fudge. We are just asking her questions so she 
can get back to work.
    Mr. Davis. All right.
    Well, Representative Buffalo, I look forward to working 
with you and the legislature here and finding solutions. Thank 
you.
    Chairwoman Fudge. Mr. Thompson.
    Mr. Thompson. Thank you very much.
    Representative, I identify probably more than any other 
people. I would not be elected in Mississippi had it not been 
for the Voting Rights Act. In Mississippi you had to own land 
to run for public office. We challenged that law under the 
Voting Rights Act and we won. So a long time ago, I understand 
that.
    My mother was a school teacher, but she could not vote 
because she was African American. When we beat that law back, 
then she had to interpret the Constitution of the United States 
even though she had a college degree. The person who 
administered the test to her had not finished the eighth grade. 
So there are a lot of things that happened.
    One of the things I am committed to, as Mr. Davis said, is 
say, look, if we are Americans, then we should act like 
Americans and do the right thing.
    So are you aware that when the legislature changed the law 
implementing the residence, the street address requirement did 
they provide monies to Native Americans for that transfer of 
responsibility or did they just pass the law and provide no 
resources?
    Ms. Buffalo. Representative Thompson, to my knowledge, 
there hasn't been additional resources. To my knowledge, there 
has been a strong lack of communication and outreach to prevent 
what happened in this last election, which left communities 
scrambling. My understanding is that counties do receive 
funding for their Native American head count, so there is a 
disconnect there that needs to be addressed.
    Mr. Thompson. So in other words, it was more or less an 
unfunded mandate on Native Americans to say you have to have an 
address, but we are not going to give you the money necessary 
to complete the process, we will just establish it.
    Ms. Buffalo. Representative Thompson, to my knowledge, no. 
I could be wrong, but I would be willing to go back and find 
that specific information.
    But to that end, I only have a few minutes, and I think 
that it is important that we work further upstream. I agree 
with Representative Rodney Davis, we do need to work together. 
And this has been generations upon generations upon generations 
of overdue.
    We need to work further upstream. The true history of our 
people needs to be told. Comments saying, you know, ``Well, 
turnout was great, wasn't it?'' that is inappropriate and 
unacceptable because that is almost saying, like, ``Oh, well, 
your kids, we mandated your children to be sent to the boarding 
schools to become civilized. But they are educated now, aren't 
they?'' It is the same thing, and it is inappropriate. But it 
is due to a lack of education, truly, of who we are and which 
land we stand on today.
    Mr. Thompson. Thank you.
    Chairwoman Fudge. Thank you.
    And thank you for your time. We appreciate your coming some 
distance. Thank you so much.
    Ms. Buffalo. Thank you.
    Chairwoman Fudge. Mr. Davis, you can go back to your 5 
minutes with your questions.
    Mr. Davis for 5 minutes.
    Mr. Davis. Thank you.
    Ms. De Leon, so are you a registered voter in North Dakota?
    Ms. De Leon. No, I am not. North Dakota doesn't have 
registration.
    Mr. Davis. Have you ever voted----
    Ms. De Leon. I live in Colorado.
    Mr. Davis. You live in Colorado? Okay.
    So with North Dakota, as we look at the election results, 
clearly, I mean, obviously Representative Buffalo doesn't want 
us to discuss the facts about turnout when it comes to 
increased electoral participation, which I think is great. I 
think it is across the board. It is not offensive. Frankly, it 
is the numbers. That is what we should see. We want to see 
everybody participate.
    You have made a commitment for Native American voting 
rights with the Native American Rights Fund. Given your 
experience in this area, I am curious to hear your thoughts 
specifically on the Voting Rights Act's Sections 2 and 3. What, 
if any, changes would you implement to Sections 2 and 3?
    Ms. De Leon. So, first, in regard to the voter turnout, I 
will just say that we don't think that outrage is a get-out-
the-vote strategy, right. I think that Native Americans--you 
know, it was a coincidence that national attention was paid to 
North Dakota. There are voter suppression issues going on 
throughout Indian Country that aren't nearly getting the 
attention or resources that were poured into North Dakota 
because it just so happened that Senator Heitkamp at the time 
was running for reelection and the Senate balance of power 
elevated this issue to the national stage.
    Mr. Davis. So this was all a conspiracy to beat Heidi 
Heitkamp?
    Ms. De Leon. Well, I think that it was certainly the case 
that the legislature enacted the law in order to suppress the 
Native American vote in response to Senator Heitkamp's win.
    Mr. Davis. But, again, it was historic high turnout in the 
Native American counties here in North Dakota.
    Ms. De Leon. Well, that was a reflection of resources. I 
think throughout voting cases what we see is, is that resources 
turn into votes. That is not a surprise. That is true across 
the Nation. The more resources that you have, the more votes 
that you can have turned out to the polls.
    You know, because of the outrage, because of the clear 
unfairness of the law, thousands of dollars were pumped into 
North Dakota. Outside community organizers paired with local 
community organizers to get out the vote. There were concerts. 
There were public figures that came to rally.
    Mr. Davis. You are talking to somebody who ran a race that 
we probably had about $14 million combined spent. I understand 
resources matter and getting your message out and getting your 
vote out.
    But you still haven't answered my question on Section 2 and 
3, and I am getting a little shorter on time.
    Ms. De Leon. I apologize. Yes, so I think that Section 2 
should certainly be, you know, exist today, and that we should 
have more resources. I think Section 2 is fine as it stands.
    I think that the section that we should be focused on is 
Section 5, which ended up getting rid of pre-clearance 
requirements, and I think that the focus should be on Congress 
reforming Section 5 in order to allow--because of the 
tremendous litigation costs associated with bringing voting 
rights claims, legislators should be prevented from passing 
those laws in the first place.
    Mr. Davis. Okay. We appreciate your work. We appreciate the 
time you have spent here.
    One other question, since you mentioned that you still feel 
that many changes were made to the voting process here in the 
State to affect one senatorial election. What was the margin of 
victory for Senator Cramer?
    Ms. De Leon. I think it was quite large. I think that at 
the end of the day voter turnout across the midterm elections 
was very high and North Dakota remains a pretty strong 
Republican stronghold.
    Mr. Davis. So it was high all around and Senator Cramer won 
by a substantial margin, and even though there were many 
resources put into areas to drive up the vote that would have 
been stronger for one candidate over the other, which in turn, 
again, in the most non-offensive way possible, I can tell you, 
higher turnout matters. Success matters. And I hope it is 
emulated across the board everywhere in this country.
    Ms. De Leon. Yes, sir. I think that is what made Senator 
Heitkamp's victory in 2012 so surprising, and that is why the 
legislature responded so severely.
    Mr. Davis. Thank you for your time.
    I yield back.
    Chairwoman Fudge. Thank you.
    Mr. Butterfield.
    Mr. Butterfield. Thank you, Madam Chairwoman. I am not sure 
I will use all my time, in the interest of time.
    Did I understand that 1.4 percent of the--5.5 percent of 
the State's population is Native American--does that sound 
right, 1 out of 20, perhaps?--but 1.4 percent of the 
legislature is Native American? That is a huge disparity. Your 
legislative representation does not reflect reasonably the 
population of the State.
    Ms. De Leon, has there been any Section 2 litigation around 
redistricting in North Dakota in recent years?
    Ms. De Leon. Not in North Dakota, no. In South Dakota there 
has been significant Section 2 litigation.
    Mr. Butterfield. Of course, as you and I both know, Section 
2 is a very powerful weapon. It is a very expensive weapon, but 
it is a very powerful weapon.
    Ms. De Leon. Yes, sir.
    Mr. Butterfield. And so certainly the citizens of North 
Dakota who have been disenfranchised and marginalized by voter 
laws certainly need to take up the right and to bring attention 
to action. I think you would be very pleased with the results. 
It may not always happen, but it will certainly happen if you 
would pursue litigation.
    Polling place locations, that is very fertile ground for 
Section 2 litigation. The absence of Native Americans as staff 
at these polling places I think is a subject that needs to be 
addressed.
    So I would like to encourage the Native American Rights 
Fund to consider investing and litigating in Section 2.
    Thank you for all the work that you do.
    Ms. De Leon. Thank you, sir.
    Mr. Butterfield. I yield back.
    Chairwoman Fudge. Mr. Thompson.
    Mr. Thompson. Thank you.
    Ms. Seminole, one of the other hallmarks of the Voter 
Rights Act was preclearance. For a long time, when I was a 
local elected official, every time a precinct was proposed to 
be moved or abolished that had to be submitted to the 
Department of Justice under a VRA requirement. Somebody in 
Justice would call and say, ``Are you aware of this? Was this 
public knowledge?''
    In many instances, the public didn't know. Justice would 
say, ``Now in America the public has a right to know if you are 
tampering or, quote, `improving' the electoral process.''
    In many instances in my State those efforts were turned 
down simply because the public didn't know. One of the 
hallmarks of the Act was just that, that the public has a right 
to know.
    The precincts that I am hearing about, did the people who 
were registered voters, did they receive letters saying, ``Your 
precinct has been moved''?
    Ms. Seminole. Well, because we don't have voter 
registration in North Dakota the public is not notified in the 
same way that States that have voter registration are notified. 
Unfortunately, our Native populations are notified frequently 
by these types of hearings through the county selected 
newspapers, which are often not read by the Native population.
    Mr. Thompson. So actually your situation is even worse than 
those areas that have registration because there is no real----
    Ms. Seminole. Accountability, yeah.
    Mr. Thompson [continuing]. Document that people can work 
from to notify individuals. So you could conceivably go to your 
last precinct you voted at in another election and all of a 
sudden it is no longer there.
    Ms. Seminole. Yeah. We are actually looking at Section 2 as 
a tool in the upcoming census numbers. 2020 is going to be 
telling because historically the Tribes in North Dakota have 
been undercounted because of kind of an arbitrary rule of head 
of households, how many head of households you can have within 
a location. And so families have been undercounted because they 
would say only two heads of household will be counted in their 
families, right, their descendants.
    And then using the census as a tool then for redistricting 
and also encouraging our legislature to consult with Tribes, 
that has historically not been done as well. Even with this 
voting rights law in the State of North Dakota there is no 
consultation with Tribes. And so our legislature has 
historically left out conversations with our Tribal 
communities.
    And then sometimes inviting Tribal leadership to different 
meetings, but those are not necessarily public to the community 
members to be present at those meetings. I mean, they are 
public meetings, but no notification has been sent that they 
are public meetings, so our Tribal members don't go.
    Mr. Thompson. Thank you.
    I yield.
    Chairwoman Fudge. Thank you.
    Ms. De Leon, is your work location-specific?
    Ms. De Leon. No, not at all. We practice nationwide.
    Chairwoman Fudge. Okay.
    Let me just say a couple of things.
    One is that we are here today so that we can collect data 
from across the country to satisfy the decision in Shelby. Now, 
mind you, Shelby did not say that there was not discrimination. 
It said exactly the opposite, that discrimination does still 
exist. What they said was the formula that you are using to 
determine preclearance is too old and the data is too old.
    So what we are doing now is trying to update the data so 
that we can, in fact, provide enough information to come up 
with an accurate formula for Section 4 so that we can, of 
course, then put back into effect Section 5 preclearance and 
have a fully functioning Voting Rights Act. So that is our real 
responsibility as we are here.
    I think that all the Tribes that had to go and create these 
IDs at the last minute at such great expense should send the 
Federal Government a bill. Maybe under the Help America Vote 
Act we could pay you for all of the work. Because what we 
really have done is create a poll tax by requiring that people 
go out and buy an ID that they don't need for any other reason 
but to vote. They don't need it to drive because they don't 
drive. They don't need it for any other reason.
    So, in fact, the state has created a poll tax on your 
reservations and all of the people who live in them. Do you 
think that is right?
    Ms. Seminole. I agree. Yes, I do. It was a burden put on 
the people of North Dakota which created a disparity for their 
American Indian populations, rural voters, and college 
students, and, therefore, those demographics had to come up 
with the means to go vote. That is essentially it. We had to 
create means to go vote.
    Chairwoman Fudge. And do you think that some of the voting 
that occurred in this last election in particular just as 
across the country, was people being angry about one thing or 
another or being encouraged in a different way than they had 
been in the past?
    Ms. Seminole. I think it was a combination. I think people 
who sent money to North Dakota for these various Tribal needs 
and get-out-the-vote efforts were still upset about the 
retaliation that they heard from the State of North Dakota 
implementing laws against the Dakota Access Pipeline protesters 
and people, but also seeing that this disparity with less than 
a month to election day, that people had to now provide these 
means, they were fired up because of this urgency that was 
created for this crisis.
    And so there was this combination of, like, we need to 
support the Native people and the Native voices, because why 
are they fighting to prove that they are the original people of 
these lands to go vote? I mean, we have been here for time 
immemorial, and we still had to prove that we have a right to 
vote. There was a lot of urgency created during those times, 
and people responded to it.
    Chairwoman Fudge. Lastly, to you both, if there were--and I 
have asked this of the other panel. If there were two things 
that you want us to take back to the U.S. House of 
Representatives that you think would make voting easier or just 
deal with the populations that you deal with on a regular 
basis, what would those two things be?
    We will start with you, Ms. De Leon.
    Ms. De Leon. Thank you, Madam Chairwoman.
    So, first, I would say that North Dakota is not an isolated 
instance. Throughout the country, Native Americans are 
subjected to unfair, discriminatory laws and burdens that are 
keeping them from voting.
    NARF, over this past year--and I am going to make the 
report available to the Committee--conducted a series of nine 
field hearings across the country asking this question of why 
is it that Native Americans have such low turnouts. And what we 
found were alarming results: unreasonable distance to the 
polls, which we have heard today; terrible conditions of road 
conditions that make it impossible to get to polling locations; 
gerrymandering; et cetera. The lack of residential address is 
going to affect things as we move towards mail-in voting and 
voting in North Dakota.
    Then overt discrimination. Not only do we see it 
structurally through laws, but we also saw individuals 
throughout the country, county officials that treated Native 
Americans with disdain, that, when somebody would come in to 
vote, the entire polling location would fall silent and stare 
at them. Like you mentioned, voting out of a chicken coop is 
unacceptable.
    There are other incidences like this all over the country. 
So, Native American discrimination at the polling locations is 
not unique to North Dakota, so we sincerely urge Federal 
action.
    And a second thing that I will say is that, right now, the 
law's Section 2 I am very grateful for, Representative 
Butterfield, and I will pursue every case that I can, but, as 
you mentioned, they are very expensive. And it is prohibitively 
expensive for a small organization like NARF to reach every 
single instance of discrimination that is happening across this 
country, and so we really urge you to take action.
    Thank you.
    Chairwoman Fudge. Thank you.
    Ms. Prairie Rose Seminole, last word.
    Ms. Seminole. Sure. First is to ensure that there is Tribal 
consultation regarding the existing voting rights laws as well 
as proposed laws. I mean, we need that education, and we need 
to build trust with Tribal communities within a system where we 
have been neglected for such a long time. Voting is new, 
relatively, for a lot of our communities.
    The other piece is our Tribal communities, our Tribal 
economies really took the burden of cost for an initiative like 
this. So, you know, just encompassing accessibility, as the 
other panelists have spoken to earlier, but accessibility to 
voting and ensuring our right to vote.
    Chairwoman Fudge. I thank you both so much for your 
testimony today. Thank you.
    We will move to our third and final panel.
    Thank you so much.
    [Recess.]
    Chairwoman Fudge. Thank you all so much.
    As you see, our panel is getting smaller. Our members, just 
as the Representative, they have to get back as well. So the 
Ranking Member and I are going to conduct this last panel.
    We thank our Members who are here.
    We have been looking forward to your testimony.
    Oliver--``OJ'' is what they call you--Semans, Sr., co-
Executive Director of Four Directions, the floor is yours, sir. 
You have 5 minutes or close to it.

STATEMENT OF OLIVER ``OJ'' SEMANS, SR., CO-EXECUTIVE DIRECTOR, 
                        FOUR DIRECTIONS

    Mr. Semans. [Speaking in Siouan.]
    You know, before I start, I want to say my relatives, I 
wish you health and help. I want to acknowledge and recognize 
the people that are our ancestors from the Oceti Sakowin that 
were here before us. I want to thank Standing Rock, our 
brothers and sisters, for bringing this. It wasn't that long 
ago that we were sitting here talking to the Tribal Council 
about the law that was created.
    Before we go, I also want to recognize--and I think this is 
important--the media such as The New York Times, The Washington 
Post, Time Magazine, Think Progress, MSNBC, NBC, ABC, CBS, 
Rachel Maddow, Joey Reed, Al Sharpton, Buzzfeed, local news 
media, and the Center for Public Integrity, because without 
them I don't think we would have this hearing. I mean, they 
were able to get our voice out there to say: Hey, we have a 
problem here, and we need to deal with it.
    I and my wife, who is a co-Director of Four Directions, we 
live on the Rosebud Sioux Tribal Indian Reservation in South 
Dakota. I heard you mention earlier that South Dakota has more 
litigation probably than any other State. We were basically 
responsible for that. We have filed under Section 2 voter 
denial cases in South Dakota twice. We learned, as we went 
along, litigation is not the way to go, but sometimes that is 
the only, the only avenue you have.
    In South Dakota, after filing litigation under Section 2, 
basically we asked the State of South Dakota to establish 
satellite offices on the Indian reservations in South Dakota. 
They fought it, basically saying they didn't have the money. 
After they spent a bunch of money in Federal court, they 
decided that, yes, they do have the money.
    I can tell you that any county or any State that says they 
don't have the funds to open up a satellite office on 
reservations throughout the United States, every one that we 
have sued so far, once they have done it, they have not filed 
bankruptcy. We know they will be safe once this is done.
    What we learned in South Dakota we took to Montana. We went 
and we settled that case. Now there are 13 satellite offices in 
the State of Montana. The Native vote has increased 
substantially.
    We then went to Nevada. In Nevada, we established two more 
satellite offices. The State legislators worked with the 
Tribes. And now they can have up to 27 satellite offices in 
Nevada.
    What we want to bring to your attention today is the Help 
America Vote Act funds. This is something that is under the 
preview of the House and which we don't need new laws; we 
already have it there. And what we would like the House to 
consider is opening up HAVA funds specifically identifying 
Tribes throughout the United States which would be able to--the 
States would utilize those HAVA funds to establish satellite 
offices.
    I heard earlier about how Senator Cramer was able to 
substantially beat Senator Heitkamp. I and other organizations 
here were part of the historic voter turnout in North Dakota in 
a midterm election. But I also want to tell you how I think he 
might have won by substantial numbers.
    In North Dakota, you have early voting, which means that 14 
days prior to the election you can go and you can vote. And if 
you pass away, your vote still counts.
    Under this North Dakota law, over 400,000--this is from the 
census--over 400,000 of the white population has access to vote 
early 14 days--over 400,000, two-thirds of the white 
population. Indian Country, living on the reservation, zero. 
Now, you want to talk about unequal, that is about as unequal 
as you are going to get.
    If I was running against you, even if they don't know me, 
you give me 14 days and allow me to have 400,000-plus voters, I 
am going to beat you. That is what happened here.
    So what we are proposing is that you use HAVA funds to 
allow counties and States to establish early voting, in-person 
voting, satellite offices on the reservation. You allow them to 
come and do in-person voter registration.
    One more thing--and the light is on--I know they were 
talking about 911 addresses. One of the things that happened 
here, the State of North Dakota got funding, and they were able 
to get funding through cell phones, landlines. They took that 
funding, and they took the money from Tribal members, from 
Tribes, that was a surcharge. And this was to create 911 
numbers--or addresses.
    Well, the State never did it. They knew they never did it. 
They got the money to do it. They got it from our Tribal 
members; they got it from our Tribes. And then they turn around 
and they create a law that requires you to have an address, a 
physical address, when they know they didn't do what they were 
supposed to do to begin with when they got the money.
    So there are problems. And this is not a partisan issue. I 
can tell you, we are nonpartisan. We have sued Democrats, and 
we have sued Republicans. This is not a party issue. This is a 
nonpartisan issue and this should be addressed. It is 
disgraceful.
    And I really appreciate you being here today, because it 
has been 17 years we have been knocking our heads against the 
wall. We can't afford litigation. We can't. But you can do what 
happened in 1924. We didn't ask for it, but we got citizenship. 
We got the right to vote in 1962, 1964.
    But what you can do with these HAVA funds is, first you can 
complement the law in 1924, and then you make it just as 
historic by taking and offering equality at the ballot box 
throughout Indian Country.
    In closing, what I would like to say is, I am glad you came 
to Standing Rock to rock equality. Thank you.
    [The statement of Mr. Semans follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you very, very much. I see your 
hat, your Navy hat. Thank you so much, sir, for your service.
    Mr. Davis.
    Mr. Davis. Sir, thank you for your testimony. I appreciate 
your interest in HAVA and the Election Assistance Commission. 
That is under our Committee's jurisdiction. You know, this is 
an opportunity for us to learn, to listen.
    You mentioned HAVA funds would be preferable to help 
establish more early-voting sites. In Sioux County, for 
example, how many early-voting sites are there? Because I am 
just trying to compare to my home State.
    Mr. Semans. Zero.
    Mr. Davis. So zero early-voting locations?
    Mr. Semans. Well, in Sioux County, there--Sioux County is 
the only county that has a reservation directly on it, so 
they----
    Mr. Davis. And there is no--not even at the courthouse, the 
county courthouse?
    Mr. Semans. That is what I was getting at. They do have in-
person absentee voting. Now, there is a big difference there.
    And, matter of fact, as an example, in 2018, we had a 
Native lady go there and ask to vote early because other 
counties had early voting, and they told her, ``No, you can't, 
because we don't have early voting.'' We asked her to ask for 
in-person absentee voting, and they said, ``Sure, you can do it 
right now. Here. Take it home.'' We said, ``Can she do it right 
here?'' ``Well, yeah.''
    So there is in-person absentee voting, but there is not 
early voting.
    Mr. Davis. Early voting. Okay. So there is not a standard 
State-wide. It is county by county.
    Mr. Semans. What they did is they allowed the counties--and 
this is what is confusing--not confusing, I guess; it is 
upsetting--is that the States turn around and give the counties 
the authority to create early voting or not early voting. And 
what is disturbing is that these counties where Indian Country 
is located is a protected class.
    And so, by them saying it is the county's fault because 
they never asked, it does not excuse the State under its 
responsibility, as the Secretary of State being the chief 
election official, to require our request early voting be 
allowed for Tribes.
    Mr. Davis. Have you personally talked to the Secretary of 
State about your concerns?
    Mr. Semans. I gave--yes, back in October.
    And then there is a 36-day law that North Dakota did that 
said you have to make this request prior to 36 days. Well, when 
we got involved in this, the 36 days passed.
    We did send him a letter asking for early voting. He 
basically said that it is not his responsibility, it is the 
county's.
    Mr. Davis. Well----
    Mr. Semans. So, on Sunday, I sent him another letter 
requesting the same thing and asking him if he was in 
compliance with the requirements of the Help America Vote Act. 
He replied that, yes, he is, but the counties, again, are the 
ones responsible to establish these offices, which is not 
correct because he is the chief election officer.
    And so I don't feel Section 2 of the Voting Rights Act is 
actually being complied with the HAVA funds being used in North 
Dakota.
    Mr. Davis. Well, thank you. That is very interesting and 
something that we will take back to our Committee too.
    There has been a lot of discussion with previous panels 
about your local elected leaders not coming to the Tribal areas 
to listen to the concerns. Have your voting officials, your 
Secretary of State, other officials, State-wide officials, have 
they come to the Tribal areas to sit down? Have you 
participated in any of those meetings?
    Mr. Semans. I have, a lot, in South Dakota. But, right now, 
in North Dakota, the Secretary of State and me are just pen 
pals. So I have communicated our thoughts with them.
    We have talked to the Tribes about--one of the things that 
I hope I can get clear is, the State laws and how they write 
them, the Tribes really don't have any knowledge of those laws. 
The Tribal Council and the Tribal leaders aren't going to know 
that the most densely populated counties are giving, you know, 
hundreds and hundreds of thousands of people more opportunity 
to vote than the Tribes.
    And I will say that sometimes covert is more deadly than 
overt. The North Dakota law was an overt action, but we 
rallied. And you push Sioux around, we push back and we bring 
our numbers in. But what happens with the covert act, the 
covert act, when you don't know that hundreds of thousands of 
people have a better opportunity to vote, how do you fight 
that?
    So, yes, we have sent letters to the Secretary of State. We 
are hoping that he responds and says, ``You know what? We want 
to meet with the Tribes. We want to establish these satellite 
offices. We know you are a protected class, and we want to put 
this here.''
    So I hope that answers your question.
    Mr. Davis. Sir, thank you very much for your testimony. 
Thank you for your service to our Nation. And thank you for 
your communication with your election officials.
    I know the Secretary of State, in a conversation I had with 
him yesterday, mentioned times he has come here to listen to 
the concerns of the Tribal areas, and I encouraged him to 
continue to do that.
    I appreciate the opportunity to meet you, and thanks again.
    Mr. Semans. [Speaking in Native language.]
    Chairwoman Fudge. Thank you very much.
    I am really glad that you mentioned about an energy that 
comes around when someone is trying to take something from you 
or do something to you. It is just like, in our testimony, 
there was a 19-year-old woman who said that she had not been 
involved politically at all, but she realized that someone was 
trying to take something from her----
    Mr. Semans. Yes, ma'am.
    Chairwoman Fudge [continuing]. And it created the energy to 
get her to go and vote. I am glad that you talked about that.
    And, as well, I wanted to say that I am from Cleveland, 
Ohio. I live in a county that has one-and-a-half million 
people. We have one early-voting site--one.
    Mr. Semans. My sister may have voted for you. She lives in 
Cleveland.
    Chairwoman Fudge. I hope so. We have a pretty good-sized 
Native American population, as a matter of fact, in Ohio, in my 
area.
    But we have one early-voting site for one-and-a-half 
million people. So it doesn't just happen here; it happens all 
over the country. I think here it happens more often, but we 
are going to Ohio next week to talk about the same kinds of 
things. I don't understand why it is difficult for people to 
understand that if you have one-and-a-half million people and 
you only have one early-voting site there is something wrong 
with that.
    I agree with you, I think that we should look at how we can 
find the resources to put in place these satellites that you 
are talking about and that really is what HAVA was established 
to do. We are going to go back and take a look at that as well.
    I know that you didn't give all of your testimony, but if 
you would like to just take a few minutes to tell me what it is 
you think that we can and should be doing, I would appreciate 
hearing it from you.
    Mr. Semans. Well, you know, I listened to the panels that 
testified before, and, you know, they were speaking from their 
heart and they were speaking from experience.
    Section 2 needs to stay in place. Section 2 is basically 
what we utilize to ensure that HAVA is actually interpreted and 
the funds are distributed correctly. We use Section 2 in South 
Dakota, Section 2 in Montana, and Section 2 in Nevada. We are 
basically right now working with the Navajo Nation using 
Section 2 in a voting rights complaint and so it is very 
important.
    Here is how I explain things: if there are five ways to 
vote, don't give Native Americans three and say we are even. If 
there are five ways to vote, every citizen should have that 
opportunity, whether it is in Cleveland, whether it is in, you 
know, the barrios. Every citizen should have those same exact 
rights. And the only way you are going to do it is by 
establishing these mirror satellite offices within the 
communities.
    The other thing I would also recommend is that we need to 
take and have election officials work with communities to get 
more people of color to be election judges and election poll 
watchers. The voter suppression does not have to be a mile away 
and does not have to be a law. It could be 3 feet, the length 
of the table, when you are coming up to vote. And we have found 
that where we have had our Natives as election officials, more 
people will come, because they are not going to be embarrassed, 
they are not going to be turned away, and it is a friendly 
atmosphere. Our people are friendly people. And so it doesn't 
matter what color you are; when you come in, you are going to 
be treated with respect.
    Most importantly is, at least in Indian Country, even 
directing $20 million, which is a drop in the bucket, to 
increase HAVA funds or at least identify HAVA funds to be used 
in States with large Native populations and work with the EAC 
so that they can get the message out. Because although it is in 
the HAVA law, it is up to the interpretation of the Secretary 
of State that decides that, ``Oh, no, this isn't really 
enhancing or bettering, you know, voting rights. We are going 
to put it into buying machines.''
    But if we can get EAC to work with the House and issue a 
statement saying that this money can be utilized under the Help 
America Vote Act to establish these types of in-person 
satellite offices, the only thing that is going to happen is 
that the backbone of democracy is going to be given a brace 
because people are going to vote.
    Chairwoman Fudge. Well, I thank you first for your 
patriotism and your service to this Nation, but I also 
appreciate your passion for the service to your people. I think 
it is very, very important that you continue the fight. We are 
going to continue to fight with you, because no matter the 
party, we all believe that everyone should have a right to 
vote. We just sometimes differ on how it should be done.
    I thank you, and I thank all the people who were witnesses 
here today. The testimony has been very valuable. We are going 
to be in touch once we put our report together.
    I am going to thank you all again. I want to thank, of 
course, Standing Rock Sioux Tribal Council for hosting us; the 
chairman and all of those who have been with us as well today; 
again, our law enforcement; our staffs; and everyone who made 
this possible today.
    Without objection, the Subcommittee now stands adjourned. 
Thank you so much.
    [Whereupon, at 12:24 p.m., the Subcommittee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                          [all]
</pre></body></html>
